HHS/OIG-AUDIT--End Stage Renal Disease Payments to Health Maintenance Organizations (A-14-96-00203)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"End Stage Renal Disease Payments to Health Maintenance Organizations,"
(A-14-96-00203)
June 12, 1997
Complete Text of Report is available in PDF format
(1M). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our continuing review of Medicare payments
made to risk-based health maintenance organizations (HMO) on behalf of beneficiaries
classified as having end stage renal disease (ESRD).
The objective of this review was to continue and update our prior work (see
our report, "Review of Medicare Payments to Health Maintenance Organizations
for End Stage Renal Disease Beneficiaries" (A-04-94-01090)) to determine
the appropriateness of payments made to HMOs on behalf of ESRD-classified beneficiaries.
Our prior review found that the Health Care Financing Administration's (HCFA)
systems did not recognize ESRD eligibility termination dates for beneficiaries
enrolled in HMOs. The scope of the prior review included those beneficiaries
who did not meet HCFA rules of HMO enrollment as an ESRD-eligible person. This
review examines eligibility and payment issues on behalf of those beneficiaries
who were not included in our prior review.
We found that HCFA's systems have been improved and now maintain a more complete
history of ESRD information and, effective October 1996, HCFA implemented systems
changes to adjust payments to HMOs when a beneficiary's ESRD entitlement ends.
Although several recalculations were necessary to properly identify beneficiaries'
correct periods of ESRD eligibility resulting in a mistaken $100 million in
overpayments being issued in October 1996, we commend HCFA for its efforts in
updating data in its systems for the ESRD beneficiary population and implementing
software modifications to recognize ESRD end dates for HMO payment adjustments
and enrollment decisions. These systems enhancements will prevent approximately
$15 million a year in future overpayments.
However, we also found that HCFA is unnecessarily limiting the time period
for recovery of the overpayments from HMOs made on behalf of beneficiaries whose
ESRD entitlement had ended. We identified $20.5 million in overpayments which
HCFA does not plan to collect because of the time limits it is imposing on its
recovery efforts. These overpayments were made to HMOs between January 1992
and February 1995 on behalf of beneficiaries who, according to HCFA's records,
no longer meet the statutory definition for ESRD entitlement because they had
a successful kidney transplant or are no longer dialyzing. The $20.5 million
in overpayments is in addition to the overpayments identified in our prior report.
We noted that the law, regulations, and the HCFA HMO manual are silent regarding
a statute of limitations to recover overpayments from risk-based HMOs.
We are recommending that HCFA recover all overpayments that have occurred at
least since 1992 as a result of the system not recognizing ESRD termination
dates for beneficiaries enrolled in HMOs and issue regulations to clearly specify
time limits for the recovery of overpayments from HMOs. Also, aggressive management
action should be taken to curtail payments whenever it is known or anticipated
that a major overpayment may occur, such as the overpayment that occurred in
October 1996.
In response to our draft report, HCFA disagreed with our recommendation to
recover all overpayments that occurred at least since 1992, but agreed with
our other recommendations.
We continue to believe that HCFA should recover overpayments at least since
1992. This situation is especially disconcerting to us since 71 HMOs received
this $20.5 million in a highly enhanced payment rate to provide a special type
of service which they did not provide. We are unable to determine HCFA's justification
for limiting the time period for recovery of overpayments, while setting no
time limitations on paying underpayments to the HMOs. We also still have concerns
about the separate recovery schedules HCFA established for overpayment recoveries
and the resulting distinction and apparent disparity in treatment between beneficiaries
who lost ESRD status while enrolled in a plan and those who lost ESRD status
before enrollment in a plan. Prior to HCFA's systems enhancements implemented
in August 1996, the systems were not able to calculate end dates, however, the
systems can now calculate end dates. We note that HCFA's systems do have information
which would allow retroactive adjustments at least to 1992--we used this information
to identify the misclassified beneficiaries in our review and to calculate the
overpayments.